                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 109060030                                                                     Page 1 of 1



          We investigated a School District 1 whose financial administration of an NSF award 2 indicated
          they may have submitted false certifications to NSF. Initially the School District was unable to
          provide support for many of its costs and it was determined that they also had unallowable costs
          charged to the award. Subsequently the School District was able to provide additional
          supporting documentation for some of the costs. The matter was referred to a US Attorney' s
          office and a settlement agreement was executed with a financial settlement which included a
          Compliance Program.

          Accordingly, this case is closed.




NSF OIG Form 2 (11 /02)
